No. _________
IN THE SUPREME COURT OF THE UNITED STATES

JESSICA ARNOLD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of the Fifth Circuit, CA No. 19-10666, dated
June 23, 2020. United States v. Arnold, 810 F. App’x 337 (5th Cir.
2020) (unpublished).
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas, entered March 23, 2017.
Appendix C Judgment of Revocation and Sentence of the United States District
Court for the Northern District of Texas, entered July 26, 2019.

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10876
Summary Calendar

FILED
June 23, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JESSICA ARNOLD,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:16-CR-234-1
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM: *
Jessica Arnold pleaded guilty to using a facility of interstate commerce
to aid a racketeering enterprise in violation of 18 U.S.C. § 1952(a)(3)(A) and
was sentenced to five years of probation. The probation officer twice reported
that Arnold had violated the conditions of her probation by using controlled
substances. Each time, Arnold was permitted to remain on probation but was
required to participate in additional drug treatment programs and undergo

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10876
more frequent drug tests.

When Arnold violated the conditions of her

probation for a third time, again by using controlled substances as she
admitted at her revocation hearing, the district court revoked her probation
and sentenced her to 24 months in prison, which was above the recommended
range of four to ten months, and three years of supervised release. This appeal
followed.
Arnold argues for the first time that the district court committed a
procedural error by failing to adequately explain the chosen sentence. Because
Arnold failed to preserve the issue for appeal, our review is for plain error.
See Puckett v. United States, 556 U.S. 129, 135 (2009); United States v. Kippers,
685 F.3d 491, 497 (5th Cir. 2012). The record demonstrates that the district
court considered the Chapter 7 policy statements; the 18 U.S.C. § 3553(a)
sentencing factors; the probation officer’s reports; and the evidence and
arguments presented, including Arnold’s request for leniency, ultimately
articulating a reasoned basis for imposing a sentence above the recommended
range. See Kippers, 685 F.3d at 498-99. Accordingly, there is no procedural
error with respect to the adequacy of the district court’s explanation. See id.
at 498-99.
Arnold also argues that her sentence is substantively unreasonable
because the district court erred in balancing the sentencing factors and
considered an inappropriate factor. Because Arnold preserved this issue of
substantive reasonableness for appeal, our review is for abuse of discretion in
light of the totality of the circumstances. See Kippers, 685 F.3d at 499-500.
The district court determined that a 24-month sentence was warranted in light
of the following sentencing factors: the nature and circumstances of Arnold’s
probation violations, including their frequency and seriousness; Arnold’s
history and characteristics, including her drug addiction and mental health

2

No. 19-10876
issues; and the need to deter Arnold from engaging in future criminal activity,
especially given that the court’s prior leniency did not prevent her from
violating the conditions of her probation. See § 3553(a); Kippers, 685 F.3d at
499-500. In light of the significant deference that we afford a district court’s
consideration of not only the § 3553(a) factors but also the reasons for its
sentencing decision, Arnold has not demonstrated that her 24-month sentence
is substantively unreasonable under the abuse-of-discretion standard. See
Kippers, 685 F.3d at 500-01.
The judgment of the district court is AFFIRMED.

3

APPENDIX B

Case 4:16-cr-00234-O Document 104 Filed 03/23/17

Page 1 of 4 PageID 299

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:16-CR-00234-O(03)
U.S. Marshal’s No.: 54554-177
Cara Foos Pierce, Assistant U.S. Attorney
John W. Stickels, Attorney for the Defendant

ALVIN LANE

On October 17, 2016 the defendant, ALVIN LANE, entered a plea of guilty as to Count Two of the
Information filed on October 11, 2016. Accordingly, the defendant is adjudged guilty of such Count, which
involves the following offense:
Title & Section
18 U.S. C § 1549(c)

Nature of Offense

Offense Ended

Count

Conspiracy to Commit Sex Trafficking of Children

4/16/2016

Two

The defendant is sentenced as provided in pages 2 through 4 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count Two of the
Information filed on October 11, 2016.
The $5,000 fine pursuant to 18 U.S.C. § 3014 has been waived.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed March 20, 2017.

____________________________________________
REED O’CONNOR
U.S. DISTRICT JUDGE

Signed March 23, 2017.

Case 4:16-cr-00234-O Document 104 Filed 03/23/17

Page 2 of 4 PageID 300

Judgment in a Criminal Case
Defendant: ALVIN LANE
Case Number: 4:16-CR-00234-O(3)

Page 2 of 4

IMPRISONMENT
The defendant, ALVIN LANE, is hereby committed to the custody of the Federal Bureau of Prisons
(BOP) to be imprisoned for a term of One Hundred Sixty-Six (166) months as to Count Two of the
Information filed on October 11, 2016.
The Court recommends to the BOP that the defendant be housed at an FCI facility within the Northern
District of Texas, if possible. Furthermore, the Court requests the BOP to preform a medical evaluation of the
defendant, if eligible.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of Four
(4) years as to Count One of the Information filed on October 11, 2016.
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)
(12)
(13)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the
probation officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a
law enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to

Case 4:16-cr-00234-O Document 104 Filed 03/23/17

Page 3 of 4 PageID 301

Judgment in a Criminal Case
Defendant: ALVIN LANE
Case Number: 4:16-CR-00234-O(3)

Page 3 of 4

confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from the
custody of the Federal Bureau of Prisons within 72 hours of release;
have no contact with the victim(s), including correspondence, telephone contact, or communication
through third parties except under circumstances approved in advance by the probation officer and not
enter onto the premises, travel past, or loiter near the victims' residences, places of employment, or other
places frequented by the victims;
register as a sex offender with state and local law enforcement as directed by the probation officer in
each jurisdiction where the defendant resides, is employed, and is a student, providing all information
required in accordance with state registration guidelines, with initial registration being completed within
three business days after release from confinement. The defendant shall provide written verification of
registration to the probation officer within three business days following registration and renew
registration as required by his probation officer. The defendant shall, no later than three business days
after each change of name, residence, employment, or student status, appear in person in at least one
jurisdiction and inform that jurisdiction of all changes in the information required in the sex-offender
registry;
participate in sex-offender treatment services as directed by the probation officer until successfully
discharged, which services may include psycho-physiological testing to monitor the defendant's
compliance, treatment progress, and risk to the community, contributing to the costs of services rendered
(copayment) at the rate of at least $25 per month;
refrain from any unlawful use of a controlled substance, submitting to one drug test within 15 days of
release from imprisonment and at least two periodic drug tests thereafter, as directed by the probation
officer pursuant to the mandatory drug testing provision of the 1994 crime bill; and,
participate in a program approved by the probation officer for treatment of narcotic or drug or alcohol
dependency that will include testing for the detection of substance use, abstaining from the use of
alcohol and all other intoxicants during and after completion of treatment, contributing to the costs of
services rendered (copayment) at the rate of at least $25 per month.

Case 4:16-cr-00234-O Document 104 Filed 03/23/17

Page 4 of 4 PageID 302

Judgment in a Criminal Case
Defendant: ALVIN LANE
Case Number: 4:16-CR-00234-O(3)

Page 4 of 4

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the
financial resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

APPENDIX C

AO 245 D (Rev. 10/96)Sheet 1 - Judgment in a Criminal Case for Revocations

Case 4:16-cr-00234-O Document 162 Filed 07/26/19

Page 1 of 6 PageID 777

United States District Court
Northern District of Texas
Fort Worth Division
UNITED STATES OF AMERICA
v.

Case Number 4:16-CR-234-O (1)

JESSICA ARNOLD
Defendant.

USM Number 47388-177
JUDGMENT IN A CRIMINAL CASE
(For Revocation of Probation or Supervised Release)
(For Offenses Committed On or After November 1, 1987)

The defendant, JESSICA ARNOLD, was represented by George Lancaster.
THE DEFENDANT:
Pleaded true to violating the conditions stated in Paragraph I and II of the Petition for Offender Under
Supervision signed June 18, 2019.
See Petitions for Offender Under Supervision.
Certified copy of the Judgment imposed on March 20, 2017, in the U.S. District Court for the Northern
District of Texas, Fort Worth Division, is attached.
As pronounced on July 25, 2019, the defendant is sentenced as provided in pages 2 and 3 of this Judgment.
The sentence is imposed pursuant to the Sentencing Reform Act of 1984.
IT IS FURTHER ORDERED that the defendant shall notify the United States Attorney for this district
within 30 days of any change of name, residence, or mailing address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid. If ordered to pay restitution, the defendant shall notify the
court and United States Attorney of any material change in the defendant’s economic circumstances.
Signed this the 26th day of July, 2019.

REED O'CONNOR
UNITED STATES DISTRICT JUDGE

Case 4:16-cr-00234-O Document 162 Filed 07/26/19

AO 245 D (Rev.10/96)Sheet 2 - Imprisonment in a Criminal Case for Revocations

Defendant: JESSICA ARNOLD
Case Number: 4:16-CR-234-O (1)

Page 2 of 6 PageID 778
Judgment--Page 2 of 3

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be
imprisoned for a term of TWENTY-FOUR (24) months as to Count One.
The Court recommends that the defendant be housed at an FCI facility within the Northern District of Texas
area, if possible.
SUPERVISED RELEASE

Upon release from imprisonment, the defendant shall be placed on supervised release for a term of
THREE (3) years.
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1) not leave the judicial district without the permission of the Court or probation officer;
( 2) report to the probation officer as directed by the Court or probation officer and submit a
truthful and complete written report within the first five (5) days of each month;
( 3) answer truthfully all inquiries by the probation officer and follow the instructions of the
probation officer;
( 4) support the defendant's dependents and meet other family responsibilities;
( 5) work regularly at a lawful occupation unless excused by the probation officer for
schooling, training, or other acceptable reasons;
( 6) notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
( 7) refrain from excessive use of alcohol and not purchase, possess, use, distribute, or
administer any narcotic or other controlled substance, or any paraphernalia related to such
substances, except as prescribed by a physician;
( 8) not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
( 9) not associate with any persons engaged in criminal activity and not associate with any
person convicted of a felony unless granted permission to do so by the probation officer;
(10) permit a probation officer to visit the defendant at any time at home or elsewhere and
permit confiscation of any contraband observed in plain view by the probation officer;
(11) notify the probation officer within seventy-two (72) hours of being arrested or questioned
by a law enforcement officer;
(12) not enter into any agreement to act as an informer or a special agent of a law enforcement
agency without the permission of the Court; and
(13) notify third parties of risks that may be occasioned by the defendant's criminal record or
personal history or characteristics, and permit the probation officer to make such
notifications and to confirm the defendant's compliance with such notification requirement,
as directed by the probation officer.

Case 4:16-cr-00234-O Document 162 Filed 07/26/19

Page 3 of 6 PageID 779

AO 245 D (Rev.10/96)Sheet 2 - Imprisonment in a Criminal Case for Revocations

Defendant: JESSICA ARNOLD
Case Number: 4:16-CR-234-O (1)

Judgment--Page 3 of 3

In addition, the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device or other dangerous weapon;
report in person to the probation office in the district to which the defendant is released within
seventy-two (72) hours of release from the custody of the Bureau of Prisons;
participate in a program (inpatient and/or outpatient) approved by the U.S. Probation Office for
treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of
substance use or abuse. The defendant shall abstain from the use of alcohol and/or all other intoxicants
during and after completion of treatment. The defendant shall contribute to the costs of services
rendered (copayment) at a rate of at least $5 per month; and,
adhere to the conditions of supervised release previously ordered in the attached certified Judgment.
RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.
RETURN
I have executed this Judgment as follows:
__________________________________________________________________________________________
__________________________________________________________________
Defendant delivered on _____________ to ___________________________________________
at ___________________________________________, with a certified copy of this Judgment.

United States Marshal
By
Deputy Marshal

Case 4:16-cr-00234-O Document 162 Filed 07/26/19

Page 4 of 6 PageID 780

Case 4:16-cr-00234-O Document 162 Filed 07/26/19

Page 5 of 6 PageID 781

Case 4:16-cr-00234-O Document 162 Filed 07/26/19

Page 6 of 6 PageID 782

